IN THE
SUPREME COURT OF THE UNITED STATES

Maurice L. Ross — PETITIONER
(Your Name)

VS.
United States of America _. RESPONDENTI(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis,

Please check the appropriate boxes:

 

Petitioner has previously been granted leave to proceed in forma pawperis in
the following court(s):

 

 

 

 

 

{A Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.

 

Petitioner’s affidavit or declaration in support of this motion is attached hereto,

 

 

{Z Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:

 

\4The appointment was made under the following provision of law:
Criminal Justice Act (18 U.S.C. Section 3006(A) , or

 

Ya, copy of the order of appointment is appended.

J\A J LYf72).
(

Signature)
Case 1:17-cr-00089-YK Document 11 Filed 04/11/17 Page 1of1

IN THE UNITED STATES DISTRICT COURT ED
FOR THE MIDDLE DISTRICT OF PENNSYLVANIMARRISBURG, PA

APR 11 2017
UNITED STATES OF AMERICA,
Plaintiff,
1:17-CR-00089
v.
ORDER APPOINTING COUNSEL

MAURICE L. ROSS,

Defendant.

 

The individual named below, having testified under oath or having otherwise
satisfied this Court that he or she (1) is financially unable to employ counsel and
(2) does not wish to waive counsel, and because the interests of justice so require,
the Court finds that the Defendant is indigent, therefore,

IT IS ORDERED that Richard F. Maffett, Jr., is hereby appointed to

represent Defendant, Maurice Ross.

DATED this 11" day of April, 2017

Susan E. Schwab
United States Chief Magistrate Judge
